SIDLEY AUSTIN LLP
ONE SOUTH DEARBORN STREET
CHICAGO, IL 60603
+1 312 853 7000
+1 312 853 7036 FAX
+1 312 853 2936
AMERICA • ASIA PACIFIC

• EUROPE

RHOCHMAN@SIDLEY.C OM

February 17, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, NW
Washington, D.C. 20543-0001
Re:

Commissioner, Alabama Department of Corrections v. Matthew Reeves, No. 201084

Dear Mr. Harris,
I represent Respondent Matthew Reeves in the above-captioned case. The petitio n fo r a
writ of certiorari in the above-captioned case was filed on February 5, 2021 and placed on th e
docket on February 9, 2021. The response is currently due on March 11, 2021.
Under Rule 30.4 of the Rules of this Court, Respondent Matthew Reeves respectfully
requests a 30-day extension of time, to and including April 12, 2021, within which to file his
response.
The undersigned has a variety of obligations before various courts that would make it
difficult to complete the response by the current deadline, especially in light of the COVID-1 9
pandemic. These matters include a merits brief due in this Court on February 22, 2021 in
Minerva v. Hologic, No. 20-440 and oral argument in Alvarez v. NBTY, No. 20-55220 (9th
Circuit) on March 4, 2021. Additionally, counsel who briefed and argued the appeal in the 11 th
Circuit, and who will be involved in drafting Respondent’s brief, is unavailable due to paternity
leave.
For these reasons, Respondent respectfully requests a 30-day extension of time to and
including April 12, 2021.

1.

Sidley Austin LLP is a limited liability partnership practicing in affiliation with other Sidley Austin partnerships.

Page 2
Sincerely,
/s/ Robert N. Hochman
Robert N. Hochman
Counsel for Respondent
cc:

Edmund G. LaCour Jr. (via email)

